No.
IN THE

~upreme <!ourt of tbe Wniteb ~tates
FACEBOOK, INC., AND TWITTER, INC.,

Petitioners,
V.

SUPERIOR COURT OF SAN FRANCISCO COUNTY,
DERRICK D. HUNTER, AND LEE SULLIVAN,

Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 5,542 words and that Appendix F
contains 502 words, for a total of 6,044 words. I further certify the Petition and
Appendix comply with the word limitation established by Rule 33.l(g)(i) of the Rules of
this Court.
Dated: February 7, 2020

Kellam Conover

